                           AUDIT OF PAPER REPORT PRODUCTION

                                        AUDIT REPORT NO. 1-14

                                              AUGUST 3, 2001




This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be released
to the public or another agency without permission of the Office of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416



                                                                   AUDIT REPORT

                                                            Issue Date: August 3, 2001
                                                            Number: 1-14



To:           Lawrence E. Barrett
              Chief Information Officer


From:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

Subject:      Paper Report Production

        We completed an audit of SBA’s centralized printing of paper reports, and concluded that
(1) a significant number of unneeded paper reports are being produced, and (2) the Agency needs
to take better advantage of electronic distribution technology.

        SBA’s Office of the Chief Information Officer (OCIO) operates a print facility at the
Agency’s Central Office in Washington, DC. This facility produces a variety of reports and uses
an estimated 500,000 to 700,000 sheets of paper per month. The following table identifies the
major categories of reports and OCIO’s estimated percentage of production in terms of paper
usage.

                                                                 Percentage of
                            Report Category                       Production
              Management Accounting and Reporting
              (MARS)                                                         35%
              Daily Transaction Reports                                      15%
              Ad Hoc Reports                                                  5%
              Programmer Compilations and Test Runs                          30%
              Human Resource and Miscellaneous                               15%
              Total                                                         100%

        Before being printed, all of these reports exist electronically. Although some
modification of application software may be needed, these reports could be made available to the
recipients via e-mail or by other electronic means.
        The following table provides estimates of annual costs directly associated with the
printing and distribution of these reports.

                             Cost component             Annual Amount
                         Distribution Costs                     $ 29,000
                         Paper                                    44,000
                         Toner and Supplies                       20,000
                         Operator Salaries                        92,000
                         Maintenance                              58,000
                         Total                                 $ 243,000

        In addition, there are a number of indirect costs, such as space, electricity, postage,
disposition, and handling, for which we did not develop estimates.


                        OBJECTIVE, SCOPE AND METHODOLOGY

        The audit objective was to determine whether SBA was producing unneeded paper
reports. We defined “unneeded” reports as automatically printed (rather than “on demand”)
reports that recipients either do not use at all or would prefer to receive electronically. To
determine if reports were unneeded, we interviewed print facility personnel, computer
specialists, 21 recipients of various reports, and OCIO management. We also analyzed report
production procedures, as well as alternatives to paper reports. Fieldwork was conducted at SBA
Central Office between June 2000 and April 2001. The audit was conducted in accordance with
generally accepted government auditing standards.


                                        AUDIT RESULTS

        A significant percentage of current paper report production is unneeded. Several report
recipients indicated they make little or no use of reports they receive. Other recipients indicated
they use only a few pages of reports that consist of hundreds or even thousands of pages.
Several recipients stated they would prefer to receive the reports electronically, with an option
for selected printing if needed. Some unneeded reports are produced because recipients are not
aware that the reports are available electronically and distribution lists have not been updated to
reflect personnel changes.

        Based on our interviews and analyses, we concluded that the automatic printing of a
significant percentage of MARS, Daily Transaction, and Personnel reports could be
discontinued. This is because many of these reports are either not used or could be provided
electronically. For example, 5 of the 14 MARS Management Information Summary (MIS)
report recipients that we interviewed stated that they did not use the reports at all. They obtained
needed information from alternative sources. Others made limited use of the reports (e.g., one
page or section of a lengthy report). The recipient of the “PMGQ21” report, indicated that only a
few pages of this 3,000 page quarterly report are ever used. Lastly, two recipients of monthly



                                                  2
personnel roster reports, which consist of about 350 pages, indicated that they used only a few
pages of these reports, and would prefer to receive them electronically.

         Much of the information contained in the paper reports is available on-line through tools
such as InfoQuest, Executive Information System, RiskLender, ELIPS, and PMQD screens.
These tools can substitute for some printed reports. OCIO has made efforts to disseminate
information on these new tools. However, half of MARS MIS recipients we interviewed were
still not aware of their existence; or if they were, did not know how to use them. In addition to
these alternatives, some of the reports could be placed on SBA’s Intranet for selected printing as
needed.


Recommendations:

       We recommend that the Chief Information Officer, in coordination with program offices
and the Office of Administration:

1. Poll recipients of paper reports to determine whether they still need the report and, if so,
   whether reporting in a media other than paper (e.g., compact disk, e-mail, query-tool) would
   be acceptable. Then take appropriate action based on results of the survey (e.g., reduce
   distribution lists for paper reports, eliminate reports, deliver reports in an electronic media,
   develop database queries).

2. Implement policies and procedures to periodically review automatic paper report production
   to eliminate unneeded printing. The policies and procedures should identify the scope and
   frequency of the reviews and actions to be taken when reports are deemed unnecessary.


SBA Management’s Response

        The Chief Information Officer (CIO) agreed that both processing efficiencies and cost
reductions can be achieved in the paper reports area. He disagreed, however, with the way some
information was presented in the draft report. The CIO believes that program offices should be
described as full and active participants in the process. He further commented that elimination of
paper reports is not a simple matter and also indicated that the OCIO has worked with program
offices to identify alternatives for meeting their reporting requirements. The CIO’s response is
included in its entirety as Attachment 2.


OIG Evaluation of Management’s Response

        We agree that program offices should share in the responsibility for implementing our
recommendations and have modified our recommendations accordingly. We also agree that
electronic production of reports cannot be accomplished as quickly or as easily as our draft
report implied. We revised our report to acknowledge that some modification of application
software may be needed. We further agree that the OCIO has made efforts to inform staff about



                                                 3
the existence of systems that make more information available electronically. However, when
we asked the people we interviewed if they were aware of such systems and, if so, knew how to
use them, half of them responded that they were either unaware of them or did not know how to
use them. We revised our report to incorporate this information.


                                            ****
      The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution.

        Please provide us your management decision for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and target
date for completion, or explanation of your disagreement with our recommendations.

       This report may contain proprietary information subject to the provisions of 18 USC
1905. Do not release to the public or another agency without permission of the Office of
Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.




                                               4
                                                                                                               ATTACHMENT 1




                                                 REPORT DISTRIBUTION


Recipient                                                                                        Number of Copies

Associate Deputy Administrator for Management & Administration ......................1

Associate Deputy Administrator for Capital Access ................................................1

Associate Deputy Administrator for Entrepreneurial Development..........................1

Associate Deputy Administrator for Government
Contracting and Minority Enterprise Development...................................................1

Chief Financial Officer .............................................................................................1
   Attention: Jeff Brown

General Counsel ........................................................................................................2
